           Office of Inspector General




March 31, 2005

WILLIAM P. GALLIGAN
VICE PRESIDENT, DELIVERY AND RETAIL

ROBERT J. PEDERSEN
VICE PRESIDENT, TREASURER

SUBJECT:         Audit Report - Fiscal Year 2004 Financial Installation Audit – Contract
                 Postal Units (Report Number FF-AR-05-100)

This report summarizes the results of our financial installation audit of 15 statistically
selected contract postal units for fiscal year (FY) 2004 (Project Number
04XD007FF000). We conducted this audit in support of the audit of the Postal Service
financial statements.

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records, and, generally, the internal controls we examined
were in place and effective. However, there were internal control and compliance
issues related to accountability over cash and stamps, safeguarding assets, bait money
orders, and Bank Secrecy Act provisions. We made recommendations to district
management addressing the findings at each installation. District management
comments were responsive to our findings and recommendations, and the actions taken
or planned should correct the issues identified at these installations.

Some of these issues were also included in our summary report for contract postal units
for FY 2003. In September 2004, management took actions at the headquarters level to
address the issues identified in our FY 2003 report. However, because we completed
our FY 2004 audits before September 2004, management’s actions did not impact
contract postal units we audited. Therefore, we did not make additional
recommendations in this report for conditions we previously identified in the FY 2003
report.

We recommended management reinforce instructions to contracting officer
representatives regarding accountability procedures at contract postal units, specifically
maintaining excess cash and safeguarding assets, to improve compliance with Postal
Service procedures.


   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Management agreed with our recommendation and plans to send a letter to the field
organizations reinforcing proper accountability procedures at contract postal units by the
spring of FY 2005. Management’s comments and our evaluation of these comments
are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information please contact
Linda Libician-Welch, Director, Field Operations - West, or me at (703) 248-2300.

/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachments

cc: Richard J. Strasser, Jr.
    Lynn Malcolm
    Margaret A. Weir
    Steven R. Phelps
Fiscal Year 2004 Financial Installation Audit –           FF-AR-05-100
 Contract Postal Units




                                      TABLE OF CONTENTS

Executive Summary                                              i

Part I

Introduction                                                   1

    Background                                                 1
    Objectives, Scope, and Methodology                         1
    Prior Audit Coverage                                       2

Part II

Audit Results                                                  4

   Accountability Procedures Were Not Always Followed          4
   Recommendation                                              7
   Management’s Comments                                       7
   Evaluation of Management’s Comments                         7

   Lack of Compliance With Bank Secrecy Act Provisions         7

   Audit Comment                                               8

Appendix A. Sites Visited                                     9
Appendix B. Management’s Comments                            10
Fiscal Year 2004 Financial Installation Audit –                                                    FF-AR-05-100
 Contract Postal Units



                                      EXECUTIVE SUMMARY
    Introduction                   This report summarizes the results of our audits of
                                   15 statistically selected contract postal units for fiscal year
                                   (FY) 2004. The Postal Reorganization Act of 1970 requires
                                   annual audits of the Postal Service’s financial statements.
                                   We conducted these audits in support of the audit of the
                                   Postal Service financial statements. The audits at each of
                                   the contract postal units were unannounced.

                                   Our overall objectives were to determine whether financial
                                   transactions of field operations were reasonably and fairly
                                   presented in the accounting records and whether internal
                                   controls were in place and effective at the 15 statistically
                                   selected contract postal units.

    Results in Brief               Based on the items we reviewed, financial transactions
                                   were reasonably and fairly presented in the accounting
                                   records, and, generally, the internal controls we examined
                                   were in place and effective. However, there were internal
                                   control and compliance issues related to accountability over
                                   cash and stamps, safeguarding assets, xxxxxxxxxxxxxxx
                                   and provisions of the Bank Secrecy Act. We made
                                   recommendations to district management addressing the
                                   findings at each installation. District management
                                   comments were responsive to our findings and
                                   recommendations, and the actions taken or planned should
                                   correct the issues identified at these installations.

                                   Some of these issues were also included in our FY 20031
                                   summary report for contract postal units. In
                                   September 2004, management took actions at the
                                   headquarters level to address the issues identified in our
                                   FY 2003 report. Management’s actions did not affect the
                                   contract postal units examined in FY 2004 since the audits
                                   were completed prior to September 2004. We are not
                                   making additional recommendations at this time for
                                   conditions identified in the FY 2003 report.




1
 Fiscal Year 2003 Financial Installation Audit – Contract Postal Units (Report Number FF-AR-04-230, dated July 19,
2004).



                                                         i
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-100
 Contract Postal Units




 Summary of                       In this summary report, we recommended the vice
 Recommendations                  president, Delivery and Retail, reinforce instructions to
                                  contracting officer representatives regarding accountability,
                                  specifically maintaining excess cash and safeguarding
                                  assets at contract postal units, to improve compliance with
                                  Postal Service procedures.

 Summary of                       Management agreed with our recommendation.
 Management’s                     Management stated they will reiterate the necessity of
 Comments                         maintaining proper accountability procedures with the field
                                  organizations. In addition, we received additional
                                  information in an email dated March 28, 2005, that
                                  management plans to send a letter to the field organizations
                                  by the spring of FY 2005 reinforcing proper accountability
                                  procedures at contract postal units.

 Overall Evaluation of            Management’s action is responsive to our recommendation
 Management’s                     and should address the issues identified in the finding.
 Comments




                                                   ii
Fiscal Year 2004 Financial Installation Audit –                                                  FF-AR-05-100
 Contract Postal Units


                                           INTRODUCTION
    Background                    Beginning with fiscal year (FY) 2001, the Office of Inspector
                                  General (OIG) began conducting financial audits at financial
                                  installations, consisting of revenue generating units2 and
                                  stamp distribution offices. These audits were conducted in
                                  support of the overall audit of the Postal Service financial
                                  statements.

                                  A contract postal unit is a contractor-owned and operated
                                  facility, under contract to the Postal Service and under the
                                  jurisdiction of an administrative post office. The units
                                  provide selected Postal Services to the public, which can
                                  include accepting mail and selling postage, supplies, and
                                  Postal Service money orders. Contract postal units are
                                  usually located in a store or place of business. Contracting
                                  officer representatives are required to perform periodic
                                  on-site reviews and annually examine the contractor’s
                                  accountability to ensure compliance with the contract.

                                  The contractor must provide a surety bond for an amount
                                  not less than the average daily value of Postal Service
                                  funds and accountable paper on hand, plus the value of
                                  postage in any Postal Service meter, excluding blank
                                  money orders. The contracting officer representative should
                                  monitor a contract postal unit’s accountability regularly to
                                  ensure it does not exceed the current bond amount.

                                  Postal Service policy3 and the unit’s contract with the Postal
                                  Service set the procedures for operations and oversight of
                                  contract postal units.

    Objectives, Scope,            Our overall objectives were to determine whether financial
    and Methodology               transactions of field operations were reasonably and fairly
                                  presented in the accounting records and whether internal
                                  controls were in place and effective.




2
 Includes post offices, contract postal units, self-service postal centers, and business mail entry units.
3
 Handbook AS 707-F, Contracting for Contract Postal Units, July 1989; Handbook F-1, Post Office Accounting
Procedures, November 1996 (updated with Postal Bulletin revisions through September 2003); Publication 116,
Contract Postal Unit Operations Guide.




                                                       1
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-100
 Contract Postal Units




                                  To accomplish these objectives, we performed fieldwork
                                  during FY 2004. The audits at each of the contract
                                  postal units were unannounced. We statistically selected
                                  15 contract postal units for review from a population
                                  of 4,123 units. The 15 units reported revenue of $3.3 million
                                  in FY 2003. (Appendix A lists the sites we selected.)

                                  We traced recorded financial transactions to and from
                                  supporting documentation and assessed the reliability of
                                  computerized data by verifying the computer records to
                                  source documents. We used Postal Service instructions,
                                  manuals, policies, and procedures as criteria to evaluate
                                  internal controls and data reliability. We also evaluated
                                  whether the internal control structure over financial reporting
                                  and safeguarding of assets was implemented and
                                  functioning as designed. We interviewed supervisors and
                                  employees and observed operations at the statistically
                                  selected contract postal units.

                                  We conducted our audit from October 2003 through
                                  March 2005 in accordance with generally accepted
                                  government auditing standards and included tests of
                                  internal controls that were necessary under the
                                  circumstances. We issued individual reports to
                                  management at each statistically selected site.
                                  We discussed our observations and conclusions with
                                  appropriate management officials and included their
                                  comments where appropriate.

 Prior Audit Coverage             The Postal Inspection Service conducted financial
                                  installation audits prior to FY 2001. We evaluated all
                                  findings in individual site reports issued by the Postal
                                  Inspection Service from FYs 1999 through 2000 and by the
                                  OIG in FYs 2001 through 2003; and we reported the status
                                  of recommendations in the individual site reports.

                                  In our summary report on contract postal units for FY 2003,
                                  we reported that management could strengthen its internal
                                  controls over stamps, cash, and money orders to reduce
                                  future losses. Management issued a memorandum dated
                                  September 15, 2004, to the vice presidents, Area
                                  Operations, advising them of the audit findings and




                                                   2
Fiscal Year 2004 Financial Installation Audit –                                    FF-AR-05-100
 Contract Postal Units




                                  requesting that existing policy and procedures be enforced
                                  by appropriate field management. Management also stated
                                  that Retail Marketing completed an initial draft of
                                  Publication 156, which will replace Handbook AS 707-F as
                                  the manual for contract postal unit operations. Because we
                                  completed our FY 2004 audits before management issued
                                  the September 15, 2004, memorandum, management’s
                                  actions did not affect the contract postal units we audited.
                                  As such, we have not determined if management’s actions
                                  were effective in addressing the issues identified in our
                                  FY 2003 report.




                                                  3
Fiscal Year 2004 Financial Installation Audit –                                         FF-AR-05-100
 Contract Postal Units




                                            AUDIT RESULTS
    Accountability                   Contract postal units did not always follow accountability
    Procedures Were Not              procedures prescribed by the Postal Service for cash and
    Always Followed                  stamps, safeguarding of assets, and xxxxxxxxxxxxxx
                                     Contract postal unit officials were not always aware of
                                     prescribed procedures, and contracting officer
                                     representatives did not ensure that the units adhered to the
                                     procedures. Until these controls are functioning as
                                     prescribed, there is an increased risk of loss.

    Cash and Stamp                   Contract postal units and administering post offices did not
    Accountability                   always follow accountability procedures. Not following
    Procedures Needed                procedures may have contributed to overages and shortages
    Improvement                      found at the units. Five contract postal units had shortages
                                     ranging from $248 to $1,876, totaling $4,333, and two units
                                     had overages of $2,522 and $2,400, totaling $4,922. Units
                                     that did not follow prescribed cash and stamp accountability
                                     procedures included:

                                        •   Three contract postal units that retained from $408 to
                                            $3,200, more cash than the allowable limit, for a
                                            total of $5,105. Contractors can keep stamp funds up
                                            to 10 percent of the stamp credit, but not more than
                                            $100, as a change fund for conducting Postal Service
                                            business.4 Holding excess cash increases the
                                            potential loss due to theft or fraud.

                                        •   Two contract postal units where the administering units
                                            did not conduct the annual examination of cash and
                                            stamp stock accountability. The administrating post
                                            office must annually inventory the contract postal unit’s
                                            accountability.5 When internal controls are not
                                            functioning as prescribed, there is an increased risk
                                            that the financial records could be misstated, or stamp
                                            stock or cash could be lost or stolen without detection.




4
    Handbook F-1, Section 426.42.
5
    Handbook F-1, Section 429.3.1.




                                                      4
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-100
 Contract Postal Units




                                  We are making no additional recommendations at this time,
                                  because these issues were identified in our FY 2003 report.

 Postal Service Assets            Contract postal units did not always safeguard Postal Service
 Were Not Always                  assets. Furthermore, some units did not maintain adequate
 Protected                        bonding or prepare bank deposits properly. Unsecured
                                  assets increase the risk of loss to the Postal Service. We
                                  found:

                                       •   Four contract postal units did not adequately
                                           safeguard assets at their locations. For example,
                                           personnel left assets, including cash, stamps, and a
                                           round date stamp, unattended during business hours
                                           and left money order imprinters unsecured during
                                           nonbusiness hours. Publication 116, Section 1-3.1,
                                           states that all accountable items must be stored under
                                           lock and key when the unit is unattended. Also,
                                           Handbook PO-208, Retail Operations – Focus on
                                           Retail, February 1999 (updated with Postal Bulletin
                                           revisions through October 4, 2002), requires clerks to
                                           follow procedures for locking their cash drawers and
                                           securing loose stock when they leave the counter. xxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxx

                                      •    Two contract postal units’ bonds did not consistently
                                           cover stamp and cash accountabilities. One unit’s
                                           stamp stock and meter accountabilities exceeded the
                                           contract postal unit’s bond five times during
                                           January 2004, by an average of $946. The other unit
                                           exceeded its $10,000 bond amount by $767 once in
                                           2004. Handbook PO-208, Section 242,
                                           February 1999, states the bond amount must be
                                           sufficient to cover stamp stock and unused funds on
                                           the postage meter.




                                                    5
Fiscal Year 2004 Financial Installation Audit –                                        FF-AR-05-100
 Contract Postal Units




                                      •    Personnel at three contract postal units did not
                                           properly prepare bank deposits. Specifically, unit
                                           personnel did not count the bank deposits in the
                                           presence of a witness. Handbook F-1, Section 221.21,
                                           requires that Postal Service (PS) Form 1412, Daily
                                           Financial Report, be prepared each business day.
                                           Section 333.2 states that the unit should count funds in
                                           the presence of a witness, then have the witness make
                                           an independent count in the presence of the preparer.

                                  The issues of unit accountability exceeding the bond amount
                                  and improper bank deposit preparation were identified in our
                                  FY 2003 report. As discussed earlier, we are making no
                                  additional recommendations at this time.

 xxxxxxxxxxxxxxxx                 Contract postal units did not always follow procedures for xxx
 Program Procedures               xxxxxxxxxxxxx If these procedures are not followed and a
 Were Not Followed                theft occurs, the Postal Service has reduced assurance that
                                  the stolen items can be traced. Specifically:

                                      •    Four contract postal units did not maintain xxxxxxx
                                           xxxxxxx Logs. Handbook PO-208, Section 437, states
                                           that units must maintain a current xxxxxxxxxxxxx
                                           Control Log.

                                      •    Three contract postal units did not control xxxxxxxx
                                           xxxxxxx The contract postal units did not monitor
                                           missing xxxxxxxxxxxxxxxx or place xxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx In
                                           addition, an administering post office did not issue xxx
                                           xxxxxxxxxxxxxx to one contract postal unit.
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxx, establishes guidelines and controls for
                                           administering the xxxxxxxxxxxxxxxxxxxxxx

                                  xxxxxxxxxxxxxxxx were identified in our FY 2003 report and
                                  the Postal Service has taken actions, which should address
                                  this issue. Therefore, we are not making any additional
                                  recommendations for this issue.




                                                     6
Fiscal Year 2004 Financial Installation Audit –                                     FF-AR-05-100
 Contract Postal Units




 Recommendation                   We recommend the vice president, Delivery and Retail:

                                       1.   Reinforce instructions to contracting officer
                                            representatives regarding maintaining excess cash
                                            and safeguarding assets, to increase compliance with
                                            Postal Service procedures.

 Management’s                     Management agreed with our recommendation. Management
 Comments                         stated they will reiterate the necessity of maintaining proper
                                  accountability procedures with the field organizations. In
                                  addition, we received additional information in an email dated
                                  March 28, 2005, that management plans to send a letter to
                                  the field organizations by the spring of FY 2005 reinforcing
                                  proper accountability procedures at contract postal units.

 Evaluation of                    Management’s action is responsive to our recommendation
 Management’s                     and should address the issues identified in the finding.
 Comments

 Lack of Compliance               Personnel at contract postal units were not aware of their
 With Bank Secrecy                responsibilities and the reporting requirements under the
 Act Provisions                   Bank Secrecy Act. If contract personnel are not aware of the
                                  act’s provisions, there is an increased risk that criminal
                                  activity could occur and not be detected.

                                  Personnel at eight contract postal units were not aware of
                                  their responsibilities and the reporting requirements under the
                                  Bank Secrecy Act. Administrative Support Manual (ASM),
                                  Issue 13, dated July 1999, requires contract personnel to
                                  complete PS Form 8105-A, Funds Transaction Report, when
                                  selling money orders totaling $3,000 or more to the same
                                  customer in the same day. xxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  Unit personnel should complete and forward both forms to the
                                  address listed on the form.




                                                    7
Fiscal Year 2004 Financial Installation Audit –                                     FF-AR-05-100
 Contract Postal Units




                                  Generally, unit personnel had not received training or
                                  instructions on the provisions of the Bank Secrecy Act.
                                  ASM Section 229.13, requires contract employees assigned
                                  to retail sales positions to participate in a formal training
                                  program that includes instructions on the essential elements
                                  of the Bank Secrecy Act, xxxxxxxxxxxxxxxxxxxxxxxxx
                                  transactions.

 Audit Comment                    Beginning in October 2004, the Postal Service began training
                                  contract postal unit managers and contracting officer
                                  representatives in Bank Secrecy Act provisions. The Postal
                                  Service sent training packets to seven of the contract Postal
                                  Service units we identified in our individual audits. The
                                  eighth unit closed in September 2004. Additionally, the Bank
                                  Secrecy Act Compliance Office has contacted Delivery and
                                  Retail and requested any new contract postal units, prior to
                                  selling postal money orders, be required to provide all
                                  employees with Bank Secrecy Act training. In addition, Postal
                                  Service officials published a Postal Bulletin article on the
                                  training requirement. The Postal Service plans to mail a
                                  training packet to every contract postal unit that sells Postal
                                  Service money orders and the Bank Secrecy Act Compliance
                                  Office plans to follow-up to ensure training is completed and
                                  documented. These actions should address the issues we
                                  identified in our audits and as such, we are not making any
                                  recommendations at this time.




                                                   8
Fiscal Year 2004 Financial Installation Audit –                                   FF-AR-05-100
 Contract Postal Units




                                APPENDIX A. SITES VISITED

                                                  FY 2003
            Contract Postal Unit                  Revenue              Location

 xxxxxxxxxx                                        xxxxxxxx   xxxxxxxx, Washington
 xxxxxxxxxxxxxxxxx                                  xxxxxxx   xxxxxxxxx, Florida
 xxxxxxxxxxxxxxxxxxxxxxxxx                          xxxxxxx   xxxxxxx, Oregon
 xxxxxxxxxx                                         xxxxxxx   xxxxxxxxxxxxx, New York
 xxxxxxxxxx                                         xxxxxxx   xxxxxxxxxxxx, New Mexico
 xxxxxxxxxxxxxxxx                                   xxxxxxx   xxxxxx, South Carolina
 xxxxxxxx                                           xxxxxxx   xxxxxxxxxx, Florida
 xxxxxxxxxxx                                        xxxxxxx   xxxxxxxx, Michigan
 xxxxxxxxxxxxxxx                                    xxxxxxx   xxxxxxxx, Florida
 xxxxxxxxxx                                         xxxxxxx   xxxxxxxxxxx, Florida
 xxxxxxxxxxxxx                                      xxxxxxx   xxxxxxxxxxxxx, Louisiana
 xxxxxxxxx                                           xxxxxx   xxxxxx, Utah
 xxxxxxxxxxxxxxxxxxxxx                               xxxxxx   xxxxxxxx, Arkansas
 xxxxxxxxxxx                                         xxxxxx   xxxxxx, Oklahoma
 xxxxxxxxxxxxxxxxxxxxxxxxxxxx                         xxxxx   xxxxxxxx, Washington




                                                  9
Fiscal Year 2004 Financial Installation Audit –         FF-AR-05-100
 Contract Postal Units



                    APPENDIX B. MANAGEMENT’S COMMENTS




                                                  10
